                  Department of Veterans Affairs
                  Office of Inspector General


                    Office of Healthcare Inspections

Report No. 14-00924-247


 Community Based Outpatient Clinic 

  and Primary Care Clinic Reviews 

                  at 

   Fayetteville VA Medical Center 

    Fayetteville, North Carolina 





August 19, 2014

                        Washington, DC 20420
To Report Suspected Wrongdoing in VA Programs and Operations
                    Telephone: 1-800-488-8244
                   E-Mail: vaoighotline@va.gov
         (Hotline Information: www.va.gov/oig/hotline)
                             CBOC and PCC Reviews at Fayetteville VA Medical Center, Fayetteville, NC



                                             Glossary
                       AUD         alcohol use disorder
                       CBOC        community based outpatient clinic
                       CPRS        computerized patient record system
                       DWHP        designated women’s health provider
                       EHR         electronic health record
                       EOC         environment of care
                       FY          fiscal year
                       MH          mental health
                       MM          medication management
                       NM          not met
                       OIG         Office of Inspector General
                       PACT        Patient Aligned Care Teams
                       PCC         primary care clinic
                       PCMM        Primary Care Management Module
                       PCP         primary care provider
                       RN          registered nurse
                       VHA         Veterans Health Administration
                       VISN        Veterans Integrated Service Network
                       WH          women’s health




VA OIG Office of Healthcare Inspections
                                    CBOC and PCC Reviews at Fayetteville VA Medical Center, Fayetteville, NC



                                            Table of Contents 

                                                                                                                             Page 

Executive Summary ...................................................................................................              i


Objectives, Scope, and Methodology.......................................................................                          1

  Objectives ...............................................................................................................       1

  Scope......................................................................................................................      1

  Methodology ...........................................................................................................          1


Results and Recommendations ................................................................................                       3

  EOC ........................................................................................................................     3

  AUD ........................................................................................................................     5

  MM ..........................................................................................................................    7

  DWHP Proficiency ..................................................................................................              8


Appendixes
  A. CBOC Profiles and Services Provided ..............................................................                            9

  B. PACT Compass Metrics ....................................................................................                    11

  C. VISN Director Comments ..................................................................................                    15

  D. Facility Director Comments ...............................................................................                   16

  E. OIG Contact and Staff Acknowledgments .........................................................                              20

  F. Report Distribution .............................................................................................            21

  G. Endnotes ...........................................................................................................         22





VA OIG Office of Healthcare Inspections
                           CBOC and PCC Reviews at Fayetteville VA Medical Center, Fayetteville, NC



                                Executive Summary 

Review Purpose: The purpose of the review was to evaluate selected patient care
activities to determine whether the community based outpatient clinics (CBOCs) and
primary care clinics (PCCs) provide safe, consistent, and high-quality health care for our
veterans. We conducted site visits during the week of June 23, 2014, at the following
CBOCs which are under the oversight of the Fayetteville VA Medical Center and
Veterans Integrated Service Network 6:

	   Goldsboro CBOC, Goldsboro, NC

	   Hamlet CBOC, Hamlet, NC

Review Results: We conducted four focused reviews and had no findings for the
Designated Women’s Health Providers’ Proficiency review. However, we made
recommendations in the following three review areas:

Environment of Care. Ensure that:

	   The installed modification alarm works consistently so that staff can be notified when
     veterans require assistance for entry into the Hamlet CBOC.

Alcohol Use Disorder. Ensure that CBOC/PCC:

	   Staff consistently complete diagnostic assessments for patients with a positive
     alcohol screen.

	   Managers ensure that patients with excessive persistent alcohol use receive brief
     treatment or are evaluated by a specialty provider within 2 weeks of the screening.

Medication Management. Ensure that CBOC/PCC staff:

	   Document that medication reconciliation was completed at each episode of care
     where the newly prescribed fluoroquinolone was administered, prescribed, or
     modified.

	   Consistently provide        written   medication      information     that   includes     the
     fluoroquinolone.

	   Provide medication counseling/education as required.




VA OIG Office of Healthcare Inspections                                                          i
                           CBOC and PCC Reviews at Fayetteville VA Medical Center, Fayetteville, NC


Comments
The VISN and Facility Directors agreed with the CBOC and PCC review findings and
recommendations and provided acceptable improvement plans. (See Appendixes C
and D, pages 15–19, for the full text of the Directors’ comments.) We will follow up on
the planned actions until they are completed.




                                                          JOHN D. DAIGH, JR., M.D. 

                                                         Assistant Inspector General for 

                                                            Healthcare Inspections





VA OIG Office of Healthcare Inspections                                                          ii
                                CBOC and PCC Reviews at Fayetteville VA Medical Center, Fayetteville, NC



                    Objectives, Scope, and Methodology 

Objectives
The CBOC and PCC reviews are an element of the OIG’s efforts to ensure that our
Nation’s veterans receive high-quality VA health care services. As such, the CBOC and
PCC reviews are recurring evaluations of selected primary care operations that focus on
patient care quality and the EOC. In general, our objectives are to:

      	   Determine whether the CBOCs are compliant with EOC requirements.

      	   Determine whether CBOCs/PCCs are compliant with VHA requirements in the
           care of patients with AUD.

      	   Determine compliance with requirements for the clinical oversight and patient
           education of fluoroquinolones for outpatients.

      	   Evaluate if processes are in place for DWHPs to maintain proficiency in WH.

Scope
To evaluate for compliance with requirements related to patient care quality and the
EOC, we conducted onsite inspections, reviewed clinical and administrative records,
and discussed processes and validated findings with managers and employees. The
review covered the following four activities:

      	   EOC

      	   AUD

      	   MM

      	   DWHP Proficiency

The scope of this review is limited to the established objectives. Issues and concerns
that come to our attention that are outside the scope of this standardized inspection will
be reviewed and referred accordingly.

Methodology
The onsite EOC inspections were only conducted at randomly selected CBOCs that had
not been previously inspected.1 Details of the targeted study populations for the AUD,
MM, and DWHP Proficiency focused reviews are noted in Table 1.




1
    Includes 93 CBOCs in operation before March 31, 2013.


VA OIG Office of Healthcare Inspections                                                               1
                               CBOC and PCC Reviews at Fayetteville VA Medical Center, Fayetteville, NC


Table 1. CBOC/PCC Focused Reviews and Study Populations

      Review Topic                                    Study Population
          AUD                  All CBOC and PCC patients screened within the study period
                               of July 1, 2012, through June 30, 2013, and who had a positive
                               AUDIT-C score2 and all providers and RN Care Managers
                               assigned to PACT prior to October 1, 2012.
            MM                 All outpatients with an original prescription ordered for one of
                               the three selected fluoroquinolones from July 1, 2012, through
                               June 30, 2013.
    DWHP Proficiencies         All WH PCPs designated as DWHPs as of October 1, 2012,
                               and who remained as DWHPs until September 30, 2013.

In this report, we make recommendations for improvement. Recommendations pertain
to issues that are significant enough to be monitored by the OIG until corrective actions
are implemented.

The review was done in accordance with OIG standard operating procedures for CBOC
and PCC reviews.




2
 The AUDIT-C is a brief alcohol screen that reliably identifies patients who are hazardous drinkers or have active
alcohol use disorders. Scores range from 0–12.


VA OIG Office of Healthcare Inspections                                                                              2
                                     CBOC and PCC Reviews at Fayetteville VA Medical Center, Fayetteville, NC



                          Results and Recommendations 

EOC
The purpose of this review was to evaluate whether CBOC managers have established and
maintained a safe and clean EOC as required.a

We reviewed relevant documents and conducted physical inspections of the Goldsboro and
Hamlet CBOCs. The table below shows the areas reviewed for this topic. The area marked as
NM did not meet applicable requirements and needed improvement.

Table 2. EOC

NM                      Areas Reviewed                                        Findings
       The CBOC’s location is clearly identifiable
       from the street as a VA CBOC.
       The CBOC has interior signage available that
       clearly identifies the route to and location of
       the clinic entrance.
 X     The CBOC is Americans with Disabilities Act       The installed modification alarm did not work
       accessible.                                       consistently to notify staff when veterans require
                                                         assistance for entry into the Hamlet CBOC.
       The furnishings are clean and in good repair.
       The CBOC is clean.
       The CBOC maintains a written, current
       inventory of hazardous materials and waste
       that it uses, stores, or generates.
       An alarm system and/or panic buttons are
       installed and tested in high-risk areas (e.g.,
       MH clinic).
       Alcohol hand wash or soap dispenser and
       sink are available in the examination rooms.
       Sharps containers are secured.
       Safety needle devices are available.
       The CBOC has a separate storage room for
       storing medical (infectious) waste.
       The CBOC conducts fire drills at least every
       12 months.
       Means of egress from the building are
       unobstructed.
       Access to fire alarm pull stations is
       unobstructed.
       Access to fire extinguishers is unobstructed.
       The CBOC has signs identifying the locations
       of fire extinguishers.
       Exit signs are visible from any direction.
       No expired medications were noted during the
       onsite visit.



VA OIG Office of Healthcare Inspections                                                                       3
                                     CBOC and PCC Reviews at Fayetteville VA Medical Center, Fayetteville, NC


NM               Areas Reviewed (continued)                                   Findings
       All medications are secured from
       unauthorized access.
       Personally identifiable information is protected
       on laboratory specimens during transport so
       that patient privacy is maintained.
       Adequate privacy is provided to patients in
       examination rooms.
       Documents containing patient-identifiable
       information are not laying around, visible, or
       unsecured.
       Window coverings provide privacy.
       The CBOC has a designated examination
       room for women veterans.
       Adequate privacy is provided to women
       veterans in the examination room.
       The information technology network
       room/server closet is locked.
       All computer screens are locked when not in
       use.
       Staff use privacy screens on monitors to
       prevent unauthorized viewing in high-traffic
       areas.
       EOC rounds are conducted semi-annually (at
       least twice in a 12-month period) and
       deficiencies are reported to and tracked by the
       EOC Committee until resolution.
       The CBOC has an automated external
       defibrillator.
       Safety inspections are performed on the
       CBOC medical equipment in accordance with
       Joint Commission standards.
       The parent facility includes the CBOC in
       required education, training, planning, and
       participation leading up to the annual disaster
       exercise.
       The parent facility’s Emergency Management
       Committee evaluates CBOC emergency
       preparedness activities, participation in annual
       disaster exercise, and staff training/education
       relating to emergency preparedness
       requirements.

Recommendation

1. We recommended that managers ensure that the installed modification alarm works
consistently so that staff can be notified when veterans require assistance for entry into the
Hamlet CBOC.




VA OIG Office of Healthcare Inspections                                                                    4
                                     CBOC and PCC Reviews at Fayetteville VA Medical Center, Fayetteville, NC


AUD
The purpose of this review was to determine whether the facility’s CBOCs and PCCs complied
with selected alcohol use screening and treatment requirements.b

We reviewed relevant documents. We also reviewed 40 EHRs and validated findings with key
managers and staff. The table below shows the areas reviewed for this topic. The areas
marked as NM did not meet applicable requirements and needed improvement.

Table 3. AUD

NM                    Areas Reviewed                                          Findings
       Alcohol use screenings are completed during
       new patient encounters, and at least annually.
 X     Diagnostic assessments are completed for           Staff did not complete diagnostic assessments
       patients with a positive alcohol screen.           for 13 (33 percent) of 40 patients who had
                                                          positive alcohol use screens.
       Education and counseling about drinking            .
       levels and adverse consequences of heavy
       drinking are provided for patients with positive
       alcohol screens and drinking levels above
       National Institute on Alcohol Abuse and
       Alcoholism guidelines.
       Documentation reflects the offer of further
       treatment for patients diagnosed with alcohol
       dependence.
       For patients with AUD who decline referral to
       specialty care, CBOC/PCC staff monitored
       them and their alcohol use.
 X     Counseling, education, and brief treatments        Treatment was not provided within 2 weeks of
       for AUD are provided within 2 weeks of             positive screening for 4 of 12 patients.
       positive screening.
       CBOC/PCC RN Care Managers have
       received MI training within 12 months of
       appointment to PACT.
       CBOC/PCC RN Care Managers have
       received VHA National Center for Health
       Promotion and Disease Prevention-approved
       health coaching training (most likely TEACH
       for Success) within 12 months of appointment
       to PACT.
       The facility complied with any additional
       elements required by VHA or local policy.

Recommendations

2. We recommended that CBOC/Primary Care Clinic staff consistently complete diagnostic
assessments for patients with a positive alcohol screen.




VA OIG Office of Healthcare Inspections                                                                    5
                                     CBOC and PCC Reviews at Fayetteville VA Medical Center, Fayetteville, NC


3. We recommended that managers ensure that patients with excessive persistent alcohol use
receive brief treatment or are evaluated by a specialty provider within 2 weeks of the screening.




VA OIG Office of Healthcare Inspections                                                                    6
                                     CBOC and PCC Reviews at Fayetteville VA Medical Center, Fayetteville, NC


MM
The purpose of this review was to determine whether appropriate clinical oversight and
education were provided to outpatients prescribed oral fluoroquinolone antibiotics.c

We reviewed relevant documents. We also reviewed 39 EHRs and validated findings with key
managers and staff. The table below shows the areas reviewed for this topic. The areas
marked as NM did not meet applicable requirements and needed improvement.

Table 4. Fluoroquinolones

NM                     Areas Reviewed                                         Findings
 X     Clinicians documented the medication              We did not find documentation that medication
       reconciliation process that included the          reconciliation included the newly prescribed
       fluoroquinolone.                                  fluoroquinolone in 15 (38 percent) of 39 patient
                                                         EHRs.
 X     Written information on the patient’s prescribed   We did not find documentation that
       medications was provided at the end of the        21 (54 percent) of 39 patients received written
       outpatient encounter.                             information that included the fluoroquinolone.
 X     Medication counseling/education for the           We did not find documentation of medication
       fluoroquinolone was documented in the             counseling that included the fluoroquinolone in
       patients’ EHRs.                                   20 (51 percent) of 39 patients’ EHRs.
       Clinicians documented the evaluation of each
       patient’s level of understanding for the
       education provided.
       The facility complied with local policy.


Recommendations

4. We recommended that staff document that medication reconciliation was completed at each
episode of care where the newly prescribed fluoroquinolone was administered, prescribed, or
modified.

5. We recommended that staff consistently provide written medication information that
includes the fluoroquinolone.

6.   We recommended that staff provide medication counseling/education as required.




VA OIG Office of Healthcare Inspections                                                                     7
                                     CBOC and PCC Reviews at Fayetteville VA Medical Center, Fayetteville, NC


DWHP Proficiency
The purpose of this review was to determine whether the facility’s CBOCs and PCCs complied
with selected DWHP proficiency requirements.d

We reviewed the facility self-assessment, VHA and local policies, Primary Care Management
Module data, and supporting documentation for DWHPs’ proficiencies. The table below shows
the areas reviewed for this topic. The facility generally met requirements. We made no
recommendations.

Table 5. DWHP Proficiency

NM                    Areas Reviewed                                          Findings
       CBOC and PCC DWHPs maintained
       proficiency requirements.
       CBOC and PCC DWHPs were designated
       with the WH indicator in the Primary Care
       Management Module.




VA OIG Office of Healthcare Inspections                                                                    8
                                                                            CBOC and PCC Reviews at Fayetteville VA Medical Center, Fayetteville, NC
                                                                                                                                       Appendix A


                                                                     CBOC Profiles 

This review evaluates the quality of care provided to veterans at all of the CBOCs under the parent facility’s oversight.3
The table below provides information relative to each of the CBOCs.

                                                                                       Uniques4                                     Encounters4

                               Station                     CBOC
      Location       State                  Locality5                    MH7        PC8        Other9       All        MH7         PC8       Other9       All
                                  #                         Size6

    Wilmington      NC        565GC       Urban          Large          2,496       7,297      4,702       8,673     13,017      17,784     12,159      42,960
    Jacksonville    NC        565GA       Urban          Large          1,595       5,119      3,452       6,041      7,859      12,205     10,164      30,228
    Robeson
    County
    (Lumberton)     NC        565GE       Rural          Mid-Size          871      1,559      1,468       2,268       3,717      5,365       8,142     17,224
    Hamlet          NC        565GD       Rural          Mid-Size          358      1,700      1,296       1,969       2,031      5,295       4,386     11,712
    Goldsboro       NC        565GF       Urban          Small              61        569        100         603          97        769         121        987




3
  Includes all CBOCs in operation before March 31, 2013. 

4
  Unique patients and Total Encounters – Source: MedSAS outpatient files; completed outpatient appointments indicated by a valid stop code during the 

October 1, 2012, through September 30, 2013, timeframe at the specified CBOC.

5
  http://vaww.pssg.med.va.gov/PSSG/DVDC/FY2013_Q1_VAST.xlsx

6
  Based on the number of unique patients seen as defined by VHA Handbook 1160.01, Uniform Mental Health Services in VA Medical Centers and Clinics, 

September 11, 2008, the size of the CBOC facility is categorized as very large (> 10,000), large (5,000-10,000), mid-size (1,500-5,000), or small (< 1,500).

7
  Mental Health includes stop codes in the 500 series, excluding 531 and 563, in the primary position. 

8
  Primary Care includes the stop code list in the primary position: 323 – Primary Care; 322 – Women’s Clinic; 348 – Primary Care Group; 350 – Geriatric 

Primary Care; 531 – MH Primary Care Team-Individual; 563 – MH Primary Care Team-Group; 170 – Home Based Primary Care (HBPC) Physician. 

9
  All other non-Primary Care and non-MH stop codes in the primary position.



VA OIG Office of Healthcare Inspections                                                                                                                         9
                                CBOC and PCC Reviews at Fayetteville VA Medical Center, Fayetteville, NC


                                   CBOC Services Provided 

In addition to primary care integrated with WH and MH care, the CBOCs provide various
specialty care, ancillary, and tele-health services. The following table lists the services
provided at each CBOC.10

                            Specialty Care                                                      Tele-Health
         CBOC                                             Ancillary Services12
                              Services11                                                        Services13
     Wilmington          Infectious Disease                 Pharmacy                       Tele Primary Care
                                                    Diabetic Retinal Screening
                                                            Radiology
                                                             Nutrition
                                                        MOVE! Program14
                                                             Surgery
                                                           Social Work
    Jacksonville                   ---                      Pharmacy                       Tele Primary Care
                                                    Diabetic Retinal Screening
    Robeson County                 ---                      Pharmacy                       Tele Primary Care
    (Lumberton)                                     Diabetic Retinal Screening
                                                             Nutrition
    Hamlet                         ---                      Pharmacy                       Tele Primary Care
                                                    Diabetic Retinal Screening
                                                        MOVE! Program
    Goldsboro                      ---                            ---                                ---
 




10
    Source: MedSAS outpatient files; the denoted Specialty Care and Ancillary Services are limited to Primary Clinic 

Stops with a count ≥ 100 encounters during the October 1, 2012, through September 30, 2013, timeframe at the 

specified CBOC.

11
    Specialty Care Services refer to non-Primary Care and non-MH services provided by a physician.

12
    Ancillary Services refer to non-Primary Care and non-MH services that are not provided by a physician. 

13
    Tele-Health Services refer to services provided under the VA Telehealth program (http://www.telehealth.va.gov/). 

14 
   VHA Handbook 1120.01, MOVE! Weight Management Program for Veterans, March 31, 2011. 


VA OIG Office of Healthcare Inspections                                                                           10
                                                                          CBOC and PCC Reviews at Fayetteville VA Medical Center, Fayetteville, NC
                                                                                                                                     Appendix B


                                                         PACT Compass Metrics




                                                                                                                                                                
Data Definition. The average waiting time in days until the next third open appointment slot for completed primary care appointments in stop code 350.
                e

Completed appointments in stop code 350 for this metric include completed appointments where a 350 stop code is in the primary position on the appointment
or one of the telephone stop codes is in the primary position, and 350 stop code is in the secondary position. The data is averaged from the national to the
division level. Blank cells indicate the absence of reported data.

VA OIG Office of Healthcare Inspections                                                                                                                 11
                                                                              CBOC and PCC Reviews at Fayetteville VA Medical Center, Fayetteville, NC




Data Definition.e The percent of patients scheduled within 7 days of the desired date. Data source is the Wait Times Prospective Wait Times measures. The
total number of scheduled appointments for primary care-assigned patients in primary care clinics 322, 323 and 350. Data is collected twice a month on the
1st and the 15th. Data reported is for the data pulled on the 15th of the month. There is no FY to date score for this measure. Blank cells indicate the absence of
reported data.

VA OIG Office of Healthcare Inspections                                                                                                                        12
                                                                          CBOC and PCC Reviews at Fayetteville VA Medical Center, Fayetteville, NC




Data Definition.e This is a measure of where the patient receives his or her primary care and by whom. A low percentage is better. The formula is the total
VHA ER/Urgent Care/FEE ER Encounters WOP (including FEE ER visits) divided by the number of primary care encounters WOP with the patient’s assigned
primary care (or associate) provider plus the total VHA ER/Urgent Care/FEE ER Encounters (including FEE ER visits) WOP plus the number of primary care
encounters WOP with a provider other than the patient’s PCP/AP. Blank cells indicate the absence of reported data.


VA OIG Office of Healthcare Inspections                                                                                                                13
                                                                           CBOC and PCC Reviews at Fayetteville VA Medical Center, Fayetteville, NC




Data Definition.e Total Discharges Included in 2-day Contact Post Discharge Ratio: The total VHA and FEE Inpatient Discharges for assigned primary care
patients for the reporting timeframe. Discharges resulting in death and discharges where a patient is readmitted within 2 days of discharge are excluded from
this metric. Blank cells indicate the absence of reported data.


VA OIG Office of Healthcare Inspections                                                                                                                    14
                              CBOC and PCC Reviews at Fayetteville VA Medical Center, Fayetteville, NC
                                                                                         Appendix C
                                VISN Director Comments


               Department of
               Veterans Affairs                                      Memorandum


           Date:        July 23, 2014

          From:         Director, VA Mid-Atlantic Health Care Network (10N6)

       Subject: 	       CBOC and PCC Reviews of the Fayetteville VA Medical
                        Center, Fayetteville, NC

             To:        Director, Atlanta Office of Healthcare Inspections (54AT)

                        Director, Management Review Service (VHA 10AR MRS
                        OIG CAP CBOC)

       1. The attached subject report is forwarded for your review and further
          action. I reviewed the response of the Fayetteville VA Medical Center
          (VAMC), Fayetteville, NC and concur with the facility’s
          recommendations.

       2. If you have further questions, please contact Damaris Reyes, Chief
          Performance Improvement, at (910) 822-7091.



       (original signed by)
       DANIEL F. HOFFMANN, FACHE




VA OIG Office of Healthcare Inspections                                                            15
                            CBOC and PCC Reviews at Fayetteville VA Medical Center, Fayetteville, NC
                                                                                       Appendix D
                             Facility Director Comments



               Department of
               Veterans Affairs                                    Memorandum


           Date:       July 23, 2014

          From:        Director, Fayetteville VA Medical Center (565/00)

       Subject:        CBOC and PCC Reviews of the Fayetteville VA Medical
                       Center, Fayetteville, NC

             To:       Director, VA Mid-Atlantic Health Care Network (10N6)

             1. Fayetteville VA Medical Center concurs with the findings brought
                forth in this report. Specific corrective actions have been provided
                for the recommendations.

             2. Should you have any questions, please contact Damaris Reyes,
                Chief, Performance Improvement, at 910-822-7091.

             (original signed by:)
             ELIZABETH GOOLSBY




VA OIG Office of Healthcare Inspections                                                          16
                           CBOC and PCC Reviews at Fayetteville VA Medical Center, Fayetteville, NC


                               Comments to OIG’s Report

The following Director’s comments are submitted in response to the recommendations
in the OIG report:

OIG Recommendations

Recommendation 1. We recommended that managers ensure that the installed
modification alarm works consistently so that staff can be notified when veterans require
assistance for entry into the Hamlet CBOC.

Concur

Target date for completion: 11/30/2014

Facility response: A permanent installation of a doorbell/alarm will occur at this site of
care that can be used to notify staff if a Veteran requires assistance for entry into the
CBOC. This device will then be tested during days of clinic operation, and reported to
the EOC committee monthly to ensure sustained improvement.

Recommendation 2.       We recommended that CBOC/Primary Care Clinic staff
consistently complete diagnostic assessments for patients with a positive alcohol
screen.

Concur

Target date for completion: 12/31/14

Facility response:

Clinical reminder "positive screen" cards were developed for PACT nurses to give the
Primary Care Provider (PCP) when a patient has a positive screen. These have been in
use since April 9, 2014. Medical Center Memorandum (MCM) 11-174 “Alcohol Use
Disorders Identification Test Consumption Questions (AUDIT-C) Screening” was
published on May 9, 2014. The MCM outlines staff responsibilities and process to be
followed for patients with a positive alcohol screen. 100% of staff will complete AUDIT-
C re-education by July 31, 2014, to include the need to refresh the electronic medical
record to ensure the “Positive AUDIT-C Needs Evaluation” appears after a positive
“Alcohol Use Screen (AUDIT-C)” clinical reminder. To ensure compliance with the
process, medical record audits are completed monthly to verify diagnostic assessment
for patients with a positive alcohol screen have been completed. Oversight of this
process will be reported at the Medical Executive Board.

Recommendation 3. We recommended that managers ensure that patients with
excessive persistent alcohol use receive brief treatment or are evaluated by a specialty
provider within 2 weeks of the screening.



VA OIG Office of Healthcare Inspections                                                         17
                           CBOC and PCC Reviews at Fayetteville VA Medical Center, Fayetteville, NC


Concur

Target date for completion: 12/31/2014

Facility response:

Clinical reminder "positive screen" cards were developed for PACT nurses to give the
PCP when a patient has a positive screen. These have been in use since April 9, 2014.
Medical Center Memorandum (MCM) 11-174 “Alcohol Use Disorders Identification Test
Consumption Questions (AUDIT-C) Screening” was published on May 9, 2014. The
MCM outlines staff responsibilities and process to be followed for patients with a
positive alcohol screen. 100% of staff will complete AUDIT-C re-education by July 31,
2014, to include the need to refresh the electronic medical record to ensure the
“Positive AUDIT-C Needs Evaluation” appears after a positive “Alcohol Use Screen
(AUDIT-C)” clinical reminder. Medical record audits are completed monthly to verify
compliance with brief treatment or evaluation by a specialty provider within two weeks of
the screening. Oversight of this process will be reported at the Medical Executive
Board.

Recommendation 4. We recommended that staff document that medication
reconciliation was completed at each episode of care where the newly prescribed
Fluoroquinolones was administered, prescribed, or modified.

Concur

Target date for completion: 12/31/2014

Facility response:

Medication Reconciliation templates utilized in CPRS are being streamlined and
updated with target completion by August 31, 2014. Staff education will be completed
and a new template will be implemented by August 31, 2014. Tracers of newly
prescribed Fluoroquinolones will be completed monthly starting September 1, 2014 to
verify compliance with medication reconciliation when an outpatient Fluoroquinolone is
prescribed. Oversight of this process will be monitored in the Pharmacy, Therapeutics &
Nutrition Committee meetings

Recommendation 5.         We recommended that staff consistently provide written
medication information that includes the Fluoroquinolones.

Concur

Target date for completion: 12/31/2014

Facility response: Medication Reconciliation templates utilized in CPRS are being
streamlined and updated with target completion by August 31, 2014. Staff education will
be completed and new template will be implemented by August 31, 2014. Tracers of
newly prescribed Fluoroquinolones will be completed monthly starting


VA OIG Office of Healthcare Inspections                                                         18
                           CBOC and PCC Reviews at Fayetteville VA Medical Center, Fayetteville, NC


September 1, 2014 to verify compliance with providing medication information to include
newly prescribed Fluoroquinolones. Oversight of this process will be monitored in the
Pharmacy, Therapeutics & Nutrition Committee meetings.

Recommendation 6. We recommended                          that    staff   provide     medication
counseling/education as required.

Concur

Target date for completion: 12/31/2014

Facility response: Medication Reconciliation templates utilized in CPRS are being
streamlined and updated with target completion by August 31, 2014. Staff education will
be completed and new template will be implemented by August 31, 2014. Tracers will
be completed monthly starting September 1, 2014, to verify compliance with providing
medication counseling/education. Oversight of this process will be monitored in the
Pharmacy, Therapeutics & Nutrition Committee meetings.




VA OIG Office of Healthcare Inspections                                                         19
                           CBOC and PCC Reviews at Fayetteville VA Medical Center, Fayetteville, NC
                                                                                      Appendix E


                 OIG Contact and Staff Acknowledgments
Contact                 For more information about this report, please contact the OIG
                        at (202) 461-4720.
Onsite                  Tishanna McCutchen, ARNP, MSN, Team Leader
Contributors
Other                   Lin Clegg, PhD
Contributors            Sheyla Desir, RN, MSN
                        Matt Frazier, MPH
                        Jeff Joppie, BS
                        Jennifer Reed, RN, MSHI
                        Victor Rhee, MHS
                        Patrick Smith, M. Stat
                        Marilyn Stones, BS
                        Mary Toy, RN, MSN
                        Toni Woodard, BS
                        Jarvis Yu, MS




VA OIG Office of Healthcare Inspections                                                         20
                           CBOC and PCC Reviews at Fayetteville VA Medical Center, Fayetteville, NC
                                                                                      Appendix F

                                   Report Distribution
VA Distribution

Office of the Secretary
Veterans Health Administration
Assistant Secretaries
General Counsel
Director, VA Mid-Atlantic Health Care Network (10N6)
Director, Fayetteville VA Medical Center (565/00)

Non-VA Distribution

House Committee on Veterans’ Affairs
House Appropriations Subcommittee on Military Construction, Veterans Affairs, and
 Related Agencies
House Committee on Oversight and Government Reform
Senate Committee on Veterans’ Affairs
Senate Appropriations Subcommittee on Military Construction, Veterans Affairs, and
 Related Agencies
Senate Committee on Homeland Security and Governmental Affairs
National Veterans Service Organizations
Government Accountability Office
Office of Management and Budget
U.S. Senate: Richard Burr, Kay R. Hagan
U.S. House of Representatives: Renee Ellmers, Mike McIntyre, David E. Price


This report is available at www.va.gov/oig.




VA OIG Office of Healthcare Inspections                                                         21
                                 CBOC and PCC Reviews at Fayetteville VA Medical Center, Fayetteville, NC
                                                                                            Appendix G

                                                   Endnotes 


a
    References used for the EOC review included:
	 US Access Board, Americans with Disabilities Act Accessibility Guidelines (ADAAG), September 2, 2002.
	 US Department of Health and Human Services, Health Insurance Portability and Accountability Act, The
     Privacy Rule, August 14, 2002.
	 US Department of Labor, Occupational Safety and Health Administration, Laws and Regulations.
	 US Department of Labor, Occupational Safety and Health Administration, Guidelines for Preventing Workplace
   Violence, 2004.
	 Joint Commission, Joint Commission Comprehensive Accreditation and Certification Manual, July 1, 2013.
	 VA Directive 0324, Test, Training, Exercise, and Evaluation Program, April 5, 2012.
	 VA Directive 0059, VA Chemicals Management and Pollution Prevention, May 25, 2012.
	 VA Handbook 6500, Risk Management Framework for VA Information System, September 20, 2012.
	 VHA Center for Engineering, Occupational Safety, and Health, Emergency Management Program Guidebook,
   March 2011.
	 VHA Center for Engineering, Occupational Safety, and Health, Online National Fire Protection Association
   Codes, Standards, Handbooks, and Annotated Editions of Select Codes and Standards, July 9, 2013.
	 VHA Deputy Under Secretary for Health for Operations and Management, Memorandum: Environmental
   Rounds, March 5, 2007.
	 VHA Directive 2011-007, Required Hand Hygiene Practices, February 16, 2011.
	 VHA Directive 2012-026, Sexual Assaults & Other Defined Public Safety Incidents in VHA Facilities,
   September 27, 2012.
	 VHA Handbook 1006.1, Planning and Activating Community-Based Outpatient Clinics, May 19, 2004.
	 VHA Handbook 1330.01, Health Care Services for Women Veterans, May 21, 2010.
	 VHA Handbook 1850.05, Interior Design Operations and Signage, July 1, 2011.
b
  References used for the AUD review included:
	 National Center for Health Promotion and Disease Prevention (NCP), Veteran Health Education and Information
   (NVEI) Program, Patient Education: TEACH for Success. Retrieved from
   http://www.prevention.va.gov/Publications/Newsletters/2013/HealthPOWER_Prevention_News_Winter_2012_2
   013_FY12_TEACH_MI_Facilitator_Training.asp on January 17, 2014.
	 VHA Handbook 1120.02, Health Promotion Disease Prevention (HPDP) Program, July 5, 2012.
	 VHA Handbook 1160.01, Uniform Mental Health Services in VA Medical Centers and Clinics,
   September 11, 2008.
c
  References used for the Medication Management review included:
	 VHA Directive 2011-012, Medication Reconciliation, March 9, 2011.
	 VHA Directive 2012-011, Primary Care Standards, April 11, 2012.
	 VHA Handbook 1108.05, Outpatient Pharmacy Services, May 30, 2006.
	 VHA Handbook 1108.07, Pharmacy General Requirements, April 17, 2008.
	 Joint Commission, Joint Commission Comprehensive Accreditation and Certification Manual, July 1, 2013.
d
  References used for the DWHP review included:
	 VHA Deputy Under Secretary for Health for Operations and Management, Memorandum: Health Care Services
   for Women Veterans, Veterans Health Administration (VHA) Handbook 1330.01; Women’s Health (WH)
   Primary Care Provider (PCP) Proficiency, July 8, 2013.
	 VHA Handbook 1330.01 Health Care Services for Women Veterans, May 21, 2010.
	 VHA Handbook 1100.19, Credentialing and Privileging, November 14, 2008.
e
  Reference used for PACT Compass data graphs:
	 Department of Veterans’ Affairs, Patient Aligned Care Teams Compass Data Definitions, August 29, 2013.




VA OIG Office of Healthcare Inspections                                                                    22
